              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Operations




  Evaluation Report

The Department's Unclassified Cyber
Security Program - 2004




DOE/IG-0662                    SEPTEMBER 2004
EVALUATION REPORT ON THE DEPARTMENT'S
UNCLASSIFIED CYBER SECURITY PROGRAM - 2004


TABLE OF
CONTENTS


                Cyber Security Program

                Details of Finding ...................................................1

                Recommendations and Comments ........................7

                Appendices

                1. Objective, Scope, and Methodology..................8

                2. Related Reports ...............................................10
CYBER SECURITY PROGRAM


Program        Our evaluation established that the Department of Energy
Improvements   (Department) had taken steps to strengthen its cyber security
               program and implemented countermeasures to reduce network
               vulnerabilities addressed in our Evaluation of the Department's
               Unclassified Cyber Security Program-2003 (DOE/IG-0620,
               September 2003). Specifically, the Chief Information Officer
               (CIO) has issued several policies that, if effectively implemented,
               should improve cyber security throughout the Department.
               Additionally, the Deputy Secretary initiated a campaign to
               complete certification and accreditation of the Department's major
               applications and general support systems. The Department also
               acted to improve its reporting of cyber security incidents. Finally,
               the number of cyber security weaknesses we identified during our
               evaluation continued to decline, from a high of 69 in 2002 to 32 in
               FY 2004.

                                     Cyber Security Policies

               During the period under evaluation, the CIO issued several policies
               to address previously reported weaknesses. These policies were
               designed to improve the Department's security posture and
               included requirements for:

                  •   Use of wireless devices and information systems, such as
                      personal digital assistants and cellular phones;
                  •   Certification and accreditation of all major applications and
                      general support systems to ensure data and information
                      systems are appropriately secure and operating at an
                      acceptable level of risk;
                  •   Remote access to Department and contractor information
                      systems; and,
                  •   Implementation of a risk-based approach to managing
                      cyber security and the mandatory use of the National
                      Institute of Science and Technology (NIST) methodology
                      for evaluating computer security.

                            Focus on Certification and Accreditation

               During FY 2004, the Deputy Secretary initiated a campaign to
               conduct certification and accreditation (C&A) on all of the
               Department's major applications and general support systems.
               C&A enables program officials or system owners to, among other
               things, develop policies and procedures to address high-risk issues
               through cost-effective mitigation strategies. The Office of the



Page 1                                                       Details of Finding
                  Chief Information Officer (OCIO) took the lead on the C&A
                  initiative and required program offices to certify and accredit 90
                  percent or more of their systems by June 30, 2004. To accomplish
                  this objective, the OCIO established milestones and issued several
                  data calls to the program offices. The OCIO required the programs
                  to submit accreditation statements to support the successful
                  completion of C&A for their systems.

                             Incident Prevention, Warning, and Response

                  The Department had also made progress in improving its incident
                  reporting problems outlined in our report on the Implementation of
                  Indications, Warning, Analysis and Reporting Capability
                  (DOE/IG-0631, December 2003). In response to the report's
                  recommendations, the Department finalized its inventory of sites
                  that should be reporting cyber security incidents and now requires
                  monthly reporting from all components. Additionally, the
                  Department issued interim policy that includes requirements for
                  negative reporting. The interim policy also requires Departmental
                  elements to certify monthly, in writing, that all reportable incidents
                  that occurred during the previous calendar month had been
                  reported to management. The incident reporting policy is in the
                  final stages of review and the Department expects it to be issued in
                  late September or early October 2004.

                  While these actions are positive, the Department needs to update
                  security plans to address cyber security incident reporting,
                  establish performance goals to fully satisfy FISMA requirements,
                  and to complete actions on our earlier recommendations. These
                  activities, when finalized, should help to ensure that the
                  Department provides timely notices regarding cyber attacks.

Risk Management   Although the Department continued to make improvements to its
and Control       cyber security program during the last year, we noted that additional
Procedures        work is needed to ensure that a comprehensive risk management
                  program is completed. The risk management process provides the
                  framework for managing threats to agency operations, assets, and
                  employees resulting from the operation of an information system.
                  Specifically, the Department has not completed necessary action in
                  the C&A and contingency planning areas. Additionally, the
                  Department continued to experience cyber security control
                  problems in the areas of access controls, segregation of duties, and
                  configuration management.




Page 2                                                          Details of Finding
                           Certification and Accreditation

         In spite of the Department's campaign, at the time of our review 4
         of the 25 sites we evaluated had not completed C&A on all of its
         major and general support systems. While program officials
         currently report that work has been completed for over 90 percent
         of the Department's systems, we noted that some of the systems
         were operating under interim approval because they had not
         satisfied all C&A requirements. Additionally, the Government
         Accountability Office's (GAO) recent review of the Department’s
         C&A process noted difficulties in determining the risks accepted
         by authorizing officials in the accreditation decision or the length
         of time the accreditation was in effect.

         In a recent discussion regarding our draft report, we learned that
         the OCIO had initiated steps to validate the C&A process and had
         completed validation reviews of several packages for systems
         operating at Headquarters. The CIO also told us that she had asked
         program offices to provide copies of all system accreditation
         letters, including both interim and final authorities to operate, to
         her office. The CIO stated that these validation reviews, which
         included a review of accreditation letters, identified problems in
         the C&A process. The responsible program offices have been
         directed by the Deputy Secretary to correct those problems.

                                Contingency Planning

         Five of the 25 sites included in our review had also not taken
         adequate action to ensure that they could maintain or resume
         critical operations in the event of emergency or disaster.
         Specifically, the Department had not developed contingency or
         disaster recovery plans for financial systems at two sites or tested
         existing contingency plans at another three sites. For example, we
         found one contingency plan for a financial application that did not
         contain documented procedures for testing the plan. Specifically,
         the contingency plan did not include important areas of test
         planning, test results, and corrective actions, key steps needed to
         identify flaws in the plan and its implementation. Additionally, we
         found that another contingency plan was in development, however,
         it was missing a risk assessment and had not been finalized.




Page 3                                                 Details of Finding
                               Access Controls

         The Department continues to experience access control
         weaknesses across the complex. Strong and functional access
         controls are essential for ensuring that only authorized individuals
         have access to information resources. Access controls consist of
         both physical and logical controls designed to protect computer
         resources from unauthorized modification, loss, or disclosure. We
         found that 7 out of 25 sites reviewed during our evaluation had
         cyber security weaknesses related to networks, systems, or
         applications, including:

            •   Passwords did not always comply with Departmental
                policy. For example, vendor default passwords were not
                changed in two instances. Since vendor default passwords
                are widely known, malicious individuals could exploit them
                to gain access to sensitive information;
            •   Excessive system administrator access privileges were
                granted at two sites, including an instance where temporary
                administrator access had not been revoked. These
                privileges, if exploited, could permit unauthorized or
                malicious modifications to systems or information;
            •   Documented procedures were not in place at two sites to
                ensure that account access was removed in a timely manner
                when employees were terminated;
            •   Periodic reviews to determine whether unauthorized use
                had occurred were not conducted at two sites; and,
            •   One site granted network access to certain students and
                visitors without performing mandatory background checks.

         We also found instances of physical access deficiencies at two
         sites' primary data centers, including unlocked doors, unsecured
         media, access by non-data center employees, and audit logs that
         were not regularly reviewed.

                                Segregation of Duties

         Our review disclosed several instances of inadequate segregation
         of duties. Such controls are important because they inhibit
         fraudulent activities by controlling personnel activities through
         formal operating procedures, supervision, and review.
         Specifically, we found:

            •   An employee in a financial systems group had the ability to
                enter invoices and then authorize them for payment, a



Page 4                                                  Details of Finding
                        practice that if exploited, could result in erroneous,
                        unauthorized or fraudulent transactions;
                    •   Eight employees who could establish employee records and
                        create payroll records for the same individuals, increasing
                        the chance that an individual could establish and pay non-
                        existent employees; and,
                    •   Computer programmers who could make system program
                        changes and place them into the production environment,
                        thus increasing the risk that individuals may create, and put
                        into production, improper, unauthorized, or malicious
                        program modifications.

                                        Configuration Management

                 Our testing also revealed configuration management weaknesses at
                 five sites we visited. Essential to a coordinated and strong security
                 policy, configuration management controls help to ensure that
                 computer applications and systems are controlled and protected
                 against unauthorized modifications. While the Department
                 corrected several problems that were reported last year, we found
                 similar problems this year at different sites. For example, we
                 noted:

                    •   Despite the availability of vendor supplied updates, known
                        software security vulnerabilities had not been corrected;
                    •   Ineffective planning, testing, and follow-up that caused
                        security patches designed to prevent known computer
                        viruses and exploits to fail when deployed; and,
                    •   Undocumented procedures for system changes that could
                        potentially result in inconsistently applied processes and
                        lead to compromise of the system.

Correcting and   Weaknesses persisted because the Department has not ensured that
Identifying      organizations properly identified, tracked, and corrected previously
Weaknesses       identified cyber security weaknesses. Despite outreach efforts and
                 the publication of detailed guidance by the Department's OCIO, we
                 also noted that site level information technology (IT) professionals
                 were not always cognizant of the Department's cyber related
                 policies.

                                    Plan of Action and Milestones

                 In spite of prior year recommendations, the Department did not
                 always maintain and update its Plan of Action and Milestones
                 (POAM) database and establish it as the authoritative management
                 tool to identify and track agency actions for correcting cyber


Page 5                                                         Details of Finding
              security weaknesses. While the Department had made some
              progress in improving the accuracy of its POAM database since
              our last evaluation, our review found that 9 of 47 uncorrected
              cyber security weaknesses reported during our FY 2003 evaluation
              were not included in the Department's quarterly reports to the
              Office of Management and Budget (OMB). Additionally, 6 of 7
              findings re-issued in FY 2004 were marked as closed or completed
              in the POAM database, but had not actually been corrected. Even
              though specifically noted in our previous evaluation, the
              Department continued its practice of permitting sites to close
              findings without providing supporting evidence or verifying that
              the weakness had actually been corrected.

              To address this issue, the OCIO recently issued guidance to the
              program offices to ensure the verification that cyber security
              weaknesses are corrected prior to closing them. In particular, the
              OCIO now requires that the validation of closed findings be
              performed by someone other than the individual directly
              responsible for the correction of the weakness.

                                 Cyber Security Awareness

              The Department's efforts to promote the benefits of a robust cyber
              security program may not always be reaching the local levels of IT
              professionals across the Department. The OCIO has initiated a
              number of efforts to increase awareness of necessary cyber
              security controls, including issuing Departmental policy and
              guidance, hosting an annual cyber security conference, and
              providing training to IT professionals. However, we found that, in
              some cases, local IT professionals did not fully understand the
              Department's policy and guidance. For example, local officials did
              not understand requirements for C&A and password management.

Operational   Even though the Department's overall cyber security posture has
Impacts       improved, a number of unclassified information systems and
              networks remain vulnerable to attack. Failure to place proper
              emphasis on correcting identified weaknesses unnecessarily
              exposes critical information resources to threat of compromise.
              For example, the Department's systems and networks were recently
              the subject of a series of successful attacks where an external party
              gained broad access to multiple systems on several occasions. In
              addition, the Department reported that it was the subject of 199
              successful intrusions during FY 2004.




Page 6                                                      Details of Finding
                  As previously discussed, Government organizations face an
                  increasing threat of intrusion or damage to their IT systems.
                  Accordingly, the Department needs to ensure it has implemented
                  an aggressive program of risk management and security controls to
                  mitigate such risks.

RECOMMENDATIONS   This report identified a number of weaknesses that need to be
                  addressed by the Chief Information Officer, in coordination with
                  the National Nuclear Security Administration and Program
                  Secretarial Officers. Additionally, the Department should:

                     1. Ensure program elements use the POAM as a management
                        tool for cyber security by:

                            a. Entering and tracking the status of corrective actions
                               taken to close all known cyber security weaknesses;
                               and,
                            b. Verifying the effectiveness of corrective actions
                               before closing identified weaknesses.

                     2. Require organizations to establish a mechanism to ensure
                        that the Department's information technology policy and
                        guidance are communicated and understood by cognizant
                        cyber security officials; and,

                     3. Ensure that all major applications and general support
                        systems are certified and accredited.

MANAGEMENT        Management generally concurred with our findings and
REACTION          recommendations. The CIO stated that C&A data was still
                  being collected and they have initiated a process to independently
                  verify and validate the C&A process. Based on an agreed-upon
                  protocol, management provided informal comments to our report.
                  Such comments were discussed with the CIO and her staff on
                  September 15, 2004, and, where appropriate, have been
                  incorporated into our report.

AUDITOR           Management's proposed actions are responsive to our
COMMENTS          recommendations.




Page 7                                        Recommendations and Comments
Appendix 1
______________________________________________________________________

OBJECTIVE            To determine whether the Department's unclassified cyber security
                     program adequately protected data and information systems.

SCOPE                The audit was performed between February and September 2004,
                     at several Department locations. Specifically, we performed an
                     assessment of the Department's unclassified cyber security
                     program. The evaluation included a limited review of general and
                     application controls in areas such as entity-wide security planning
                     and management, access controls, application software
                     development and change controls, and service continuity. Our
                     work did not include a determination of whether vulnerabilities
                     found were actually exploited and used to circumvent existing
                     controls. The Office of Independent Oversight and Performance
                     Assurance (OA) performed a separate review of classified and
                     national security information systems.

METHODOLOGY          To accomplish the objective, we:
                        •   Reviewed applicable laws and directives pertaining to
                            cyber security and information technology resources, such
                            as FISMA, OMB Circular A-130 (Appendix III), and DOE
                            Order 205.1;

                        •   Reviewed applicable standards and guidance issued by
                            NIST;

                        •   Reviewed the Department's overall cyber security program
                            management, policies, procedures, and practices throughout
                            the organization;

                        •   Assessed controls over network operations to determine the
                            effectiveness related to safeguarding information resources
                            from unauthorized internal and external sources;

                        •   Evaluated selected Headquarters offices and field sites in
                            conjunction with the annual audit of the Department's
                            Consolidated Financial Statements, utilizing work
                            performed by KPMG LLP, the Office of Inspector
                            General’s (OIG) contract auditor. KPMG work included
                            analysis and testing of general and application controls for
                            systems as well as vulnerability and penetration testing of
                            networks; and,




Page 8                                           Objective, Scope, and Methodology
Appendix 1
______________________________________________________________________
                        •   Evaluated and incorporated the results of other audits,
                            evaluations, and inspections performed by the Department's
                            OIG, OA, and the GAO in our report.

                     We evaluated the Department's implementation of the Government
                     Performance and Results Act related to the establishment of
                     performance measures for unclassified cyber security. We did not
                     rely solely on computer-processed data to satisfy our objectives.
                     However, computer-assisted audit tools were used to perform
                     probes of various networks and devices. We validated the results
                     of the scans by confirming the weaknesses disclosed with
                     responsible on-site personnel and performed other procedures to
                     satisfy ourselves as to the reliability and competence of the data
                     produced by the tests.

                     The evaluation was conducted in accordance with generally
                     accepted Government auditing standards for performance audits
                     and included tests of internal controls and compliance with laws
                     and regulations to the extent necessary to satisfy our objective.
                     Accordingly, we assessed internal controls regarding the
                     development and implementation of automated systems. Because
                     our review was limited, it would not necessarily have disclosed all
                     internal control deficiencies that may have existed at the time of
                     our evaluation.

                     An exit conference was held with OCIO officials on September 15,
                     2004.




Page 9                                           Objective, Scope, and Methodology
Appendix 2
______________________________________________________________________

                                     RELATED REPORTS



    •     Implementation of Indications, Warning, Analysis and Report Capability
          (DOE/IG-0631, December 2003). The report found that the Department had not
          developed and implemented a program to monitor security incident reporting
          and had not established performance goals to measure the success of policy
          implementation. While the Department implemented policy changes in response
          to our previous audit, they were not completely effective and did not
          substantially increase reporting. The Department lacked focus and quantifiable
          performance measures to guide day-to-day operations relating to cyber security
          incident reporting.

    •     Management Challenges at the Department of Energy (DOE/IG-0626,
          November 2003). The Department's OCIO is developing corrective actions to
          mitigate cyber security risks and to improve relevant controls. For instance, the
          Department is finalizing detailed cyber security policy and guidance, and in
          June 2003 provided guidance for cyber security performance measurements.
          Additionally, the Department recently issued DOE Order 205.1, Department of
          Energy Cyber Management Program, which requires that continuity of
          operations, configuration management, and incident reporting procedures be
          developed and maintained in Program Cyber Security Plans and site Cyber
          Security Program Plans.

    •     Evaluation of the Department's Unclassified Cyber Security Program-2003
          (DOE/IG-0620, September 2003). Our evaluation found that cyber security
          weaknesses persisted because management had not taken sufficient action to
          ensure that all previously identified cyber security weaknesses were properly
          identified, tracked, and corrected in a timely manner. The Department also had
          not established program-level performance metrics to guide cyber security
          program execution or evaluate performance. Despite OMB requirements, the
          Department had not always maintained and updated its POAM. Specifically,
          our examination revealed that 22 of 30 uncorrected cyber security weaknesses
          reported during our 2002 evaluation were not included in the Department's
          quarterly reports to OMB.

    •     Inspection of Portable Electronic Device Information Security at Selected Sites
          (S03IS024, September 2003). This Management Alert concerned security
          issues regarding the use of portable digital assistants in the Department of
          Energy complex.

    •     Information Security: Continued Action Needed to Improve Software Patch
          Management (GAO-04-706, June 2004). This audit identified, among other
          things, challenges to performing patch management and additional steps that


Page 10                                                                         Related Reports
Appendix 2
______________________________________________________________________
       can be taken to mitigate the risks created by software vulnerabilities. GAO
       found that agencies, including the Department, are not consistently performing
       risk assessments and testing all patches before deployment. However, GAO
       reported that agencies face several challenges to implementing effective patch
       management, including timeliness of patches, ensuring mobile systems receive
       the latest patches, and adequate resources.

    •     Information Security: Agencies Need to Implement Consistent Processes in
          Authorizing Systems for Operation (GAO-04-376, June 2004). GAO found that
          agencies, including the Department, are not consistently reporting C&A
          performance data. Additionally, GAO found that there are other factors that
          lessen the usefulness of the reported performance data, including the limited
          assurance of data reliability and quality and the need to refine reporting
          requirements to provide better information on the status of agencies' information
          security efforts. Further, when reviewing C&A packages from the Department,
          GAO found varying degrees of comprehensiveness and instances where
          required steps were incomplete, such as missing and/or untested contingency
          plans, an outdated security plan, and missing risk assessments.

    •     Information Technology Management: Government-wide Strategic Planning,
          Performance Measurement, and Investment Management Can be Further
          Improved (GAO-04-49, January 2004). The report states that Federal agencies
          did not always have in place important practices associated with information
          laws, policies, and guidance. There were also numerous instances of individual
          agencies that did not have specific IT strategic planning, performance
          measurement, or investment management practices fully in place. Agencies
          cited a variety of reasons for not having these practices in place, such as that the
          CIO position had been vacant, that not including a requirement in guidance was
          an oversight, or that the process was being revised.

    •     Volume II, Independent Oversight Cyber Security Inspection of the Y-12 Site
          Office and Y-12 National Security Complex (January 2004).

    •     Volume II, Independent Oversight Cyber Security Inspection of the Sandia
          National Laboratories (November 2003).

    •     Independent Oversight Cyber Security Inspection of the Thomas Jefferson
          National Accelerator Facility (July 2004).




Page 11                                                                            Related Reports
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
